Civil Action No.
In the
Supreme Court of the United States

Gabriel Schmitt, on behalf of himself, resident of
the COMMONWEALTH OF MASSACHUSETTS
Plaintiffs,
v.
Governor Charlie Baker, in his official capacity as
Governor of the COMMONWEALTH of MASSACHUSETTS

)
)
)
)
)
)
)
)
)

PROOF OF SERVICE

)
)
)
)

Defendant.

PROOF OF SERVICE
I, Gabriel Schmitt, do swear or declare that on this date, September 29, 2020 as required by
Supreme Court Rule 29 I have served the enclosed motion for leave to proceed in forma pauperis and
PETITION FOR A WRIT OF CERTIORARI on each party to the above proceeding or that party's
counsel, and on every other person required to be served, by electronic mail as is allowed due to
COVID-19 under order 589 which specifies a copy may be furnished electronically on opposing party.

The name of Mr. Baker's Counsel is as follows in addition to their email adresses:
Douglas Martland - douglas.martland@state.ma.us -1 Ashburton Place, Boston, MA 02108

I declare under penalty of perjury that the foregoing is true and correct.
Executed on September 29, 2020

Gabriel Schmitt

